Case: 17-2136

Document: 00117563015

Page: 1

Date Filed: 03/10/2020

Entry ID: 6323470

United States Court of Appeals
For the First Circuit
No. 17-2136
UNITED STATES
Appellee
v.

DANNY VELOZ, a/k/a Maestro, a/k/a Joil Rivera
Defendant - Appellant

Before
Howard, Chief Judge.
Torruella, Selya, Boudin, Lynch,
Thompson, Kayatta and Barron,
Circuit Judges.

ORDER OF COURT
Entered: March 10, 2020
The petition for rehearing having been denied by the panel ofjudges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and the petition for rehearing en banc be denied.

By the Court:
Maria R. Hamilton, Clerk

Case: 17-2136

Document: 00117563015

cc:
Mark William Shea
Danny Veloz
Christopher John Pohl
Mark T. Quinlivan
Donald Campbell Lockhart
Peter K. Levitt

Page: 2

Date Filed: 03/10/2020

Entry ID: 6323470

